Audit Report




OIG-09-037
SAFETY AND SOUNDNESS: OTS Involvement With Backdated
Capital Contributions by Thrifts
May 21, 2009




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................           1

    Results in Brief ..........................................................................................       1

    Events Leading to This Review ....................................................................                3

    Summary of Capital Contributions ...............................................................                  5

    Additional OTS Guidance on Capital Contributions Needs to Be Issued.............                                  6

    Recommendations .....................................................................................             8

Appendices

    Appendix 1:          Objectives, Scope, and Methodology ....................................                    12
    Appendix 2:          Detailed Discussion of Backdated Capital Contributions
                         at Six Thrifts ......................................................................      14
    Appendix 3:          Management Response .......................................................                25
    Appendix 4:          OIG Comments to Management Response .............................                          29
    Appendix 5:          Report Distribution ..............................................................         30

Abbreviations

    ALLL             allowance for loan and lease losses
    CEO              Chief Executive Officer
    CFO              Chief Financial Officer
    EITF             Emerging Issues Task Force
    E&Y              Ernst & Young LLP
    ESCP             Examinations, Supervision, and Consumer Protection
    FASB             Financial Accounting Standards Board
    FDIC             Federal Deposit Insurance Corporation
    GAAP             generally accepted accounting principles
    OTS              Office of Thrift Supervision
    OTTI             other than temporary impairment
    SEC              Securities and Exchange Commission
    TFR              Thrift Financial Report




                         OTS Involvement With Backdated Capital Contributions by Thrifts                          Page i
                         (OIG-09-037)
         This Page Intentionally Left Blank.




OTS Involvement With Backdated Capital Contributions by Thrifts   Page ii
(OIG-09-037)
                                                                                            Audit
OIG
The Department of the Treasury
                                                                                            Report
Office of Inspector General




                          May 21, 2009

                          John E. Bowman
                          Acting Director
                          Office of Thrift Supervision

                          This report presents the results of our review of the Office of Thrift
                          Supervision’s (OTS) involvement in the backdating of capital
                          contributions by six thrifts, including the failed IndyMac Bank,
                          F.S.B (IndyMac). 1 We initiated this review after the Federal Deposit
                          Insurance Corporation (FDIC) Inspector General provided our office
                          with a workpaper prepared by IndyMac’s independent auditor. That
                          workpaper indicated that a May 2008 capital contribution from the
                          thrift’s holding company was backdated to the quarter ended
                          March 31, 2008. The workpaper also indicated that an OTS official
                          authorized the backdating. In addition, OTS provided us with five
                          more cases where a thrift backdated a capital contribution to a
                          previous quarter. Accordingly, we included these thrifts as part of
                          our review. The specific objectives of this review were to assess
                          (1) the circumstances surrounding the backdating of capital
                          contributions by the six thrifts, (2) the accounting treatment used
                          for these capital contributions, and (3) the oversight exercised by
                          OTS relating to these transactions.

                          We conducted our fieldwork from September 2008 through May
                          2009. Appendix 1 contains a detailed description of our objectives,
                          scope, and methodology. Appendix 2 contains discussions of the
                          backdated capital contributions at the six thrifts.


Results in Brief
                          We reviewed the circumstances surrounding the backdating of
                          capital contributions to prior periods at six thrifts and concluded

1
    Capital contributions are also referred to as capital infusions.

                          OTS Involvement With Backdated Capital Contributions by Thrifts       Page 1
                          (OIG-09-037)
that the backdating of these transactions was inappropriate for all
six thrifts. For one thrift, the OTS Senior Deputy Director directed
the regional office to instruct the holding company to contribute
capital and backdate the transaction. For another thrift, IndyMac,
an OTS regional director authorized the backdating of the
transaction. For a third thrift, OTS objected to backdating the
transaction, informed the thrift management not to backdate the
transaction, but the thrift proceeded to backdate it anyway.
However, in this case, and in the case of two other thrifts where
OTS became aware of the backdating after the fact, OTS allowed
the backdating to remain. For one of these two other thrifts, OTS
did not become aware of the backdating until after the period for
amending the thrift’s financial reporting had closed. For the sixth
thrift that backdated a transaction, when OTS became aware of
the backdating it directed the thrift to reverse the transaction.

We consider these matters very serious and find it alarming that
such high level OTS officials were not only aware of the
backdating at two thrifts, but either directed or authorized the
thrifts to backdate the capital contribution. Approving or directing
the thrifts to backdate these contributions is inappropriate as the
accounting treatment is not in accordance with generally accepted
accounting principles (GAAP) and allows for misleading financial
reporting by the thrifts.

In January 2009, OTS issued guidance to its examiners and
supervisory staff on the proper recognition of capital contributions.
The guidance was also issued to thrift chief executive officers
(CEO). The guidance permits thrifts to recognize as regulatory
capital, capital contributions in the form of a note receivable from
the holding company, only if the note is executed prior to period
end and the note is collected (i.e., the cash is infused) prior to
issuance of the financial statements for the same period. However,
we noted that there is no specific OTS guidance prescribing the
steps to be taken by OTS examiners to proactively identify
backdated capital contributions or what to do when a thrift is
found to have inappropriately backdated a capital contribution.

We recommend that OTS (1) determine whether there have been
any additional backdated capital contributions and, if so, take
appropriate corrective action to remedy each situation as

OTS Involvement With Backdated Capital Contributions by Thrifts   Page 2
(OIG-09-037)
                     necessary; (2) issue additional guidance outlining steps OTS
                     examiners should take to identify and address the backdating of
                     capital contributions immediately after examiners become aware of
                     such transactions; and (3) ensure that examiners and supervisory
                     staff understand OTS guidance on capital contributions and the
                     implications of backdating capital contribution transactions.

                     In its management response to this report, OTS asserts that it has
                     focused extensive resources on the issue of post-period capital
                     contributions and has provided detailed guidance to its staff and
                     the institutions it supervises regarding proper recognition and
                     reporting of capital contributions. The response also outlines a
                     number of actions OTS has taken or plans to take in response to
                     the recommendations contained within this report. The
                     management response is provided as appendix 3. Our evaluation of
                     several specific comments in OTS’s management response is
                     presented in appendix 4.


Events Leading to This Review
                     On July 11, 2008, OTS closed IndyMac and appointed the FDIC
                     receiver. Shortly thereafter, as required by law, we began a
                     material loss review of IndyMac to determine the causes of
                     IndyMac’s failure and assess OTS’s supervision over the thrift. Our
                     report on the material loss review was issued on February 26,
                     2009. 2 As is common with the failure of publicly-held insured
                     financial institutions, other Federal agencies including the Securities
                     and Exchange Commission (SEC) and FDIC also conduct reviews.
                     In the case of IndyMac, SEC reviewed workpapers prepared by
                     IndyMac’s independent auditor, Ernst &Young, LLC (E&Y). One
                     workpaper reported a telephone conversation between IndyMac’s
                     CEO, an E&Y partner, and OTS’s Western Region Director
                     regarding an infusion of capital into IndyMac from its holding
                     company, backdated to the first quarter of 2008. Because of its
                     potential relevance to our material loss review, FDIC’s Inspector
                     General in turn provided the E&Y workpaper to our office.



2
 OIG, Safety and Soundness: Material Loss Review of IndyMac Bank, FSB, Feb. 26, 2009, Report No.
OIG-09-032.

                     OTS Involvement With Backdated Capital Contributions by Thrifts       Page 3
                     (OIG-09-037)
                       At the request of former Treasury Secretary Paulson, we initiated a
                       review into the circumstances described in the E&Y workpaper. In
                       a memorandum dated December 18, 2008, we provided Secretary
                       Paulson a status of our review. In that memorandum, we confirmed
                       through inquiry and review of additional supporting documentation
                       that the circumstances occurred essentially as represented in the
                       E&Y workpaper. We further informed the Secretary that the impact
                       of recording the capital contribution in the quarter ending
                       March 31, 2008, was that IndyMac was able to maintain its well
                       capitalized status, and avoid the requirement in law to obtain a
                       waiver from FDIC to accept brokered deposits. We also advised the
                       Secretary that during our inquiry, we discovered that OTS had
                       allowed other thrifts to record capital contributions in an earlier
                       period than received and while there was some support in
                       authoritative accounting literature for permitting this practice, that
                       support was limited. Furthermore, we informed the Secretary that
                       we were continuing our review and would be issuing a separate
                       audit report with our findings.

                       In response to our December 18, 2008 memorandum discussed
                       above, OTS issued a letter to Secretary Geithner on January 30,
                       2009. In that letter, the OTS Director concluded that the May 9,
                       2008 capital contribution should not have been included in
                       IndyMac’s March 31, 2008 Thrift Financial Report (TFR) 3 because
                       IndyMac had not recorded a note receivable from the holding
                       company before the quarter ended. The letter stated that there
                       were four other thrifts that had backdated capital contributions. 4
                       Furthermore, the letter discussed actions taken by OTS. These
                       actions included the issuance of guidance to OTS staff and thrifts
                       as well as the fact that the OTS Western Region Director had been
                       placed on administrative leave pending completion of an internal
                       review. 5




3
  The TFR is a quarterly financial report that thrifts are required to file with OTS. The report includes
detailed information about the institution’s operations and financial condition. OTS requires the TFR to
be prepared in accordance with GAAP.
4
  Since then, we were informed by the OTS Chief Accountant of another thrift that backdated a capital
contribution.
5
  Since then, the official has retired from Federal service.

                       OTS Involvement With Backdated Capital Contributions by Thrifts              Page 4
                       (OIG-09-037)
Summary of Capital Contributions
                             The following chart summarizes the OTS regions, time periods, and
                             actions taken by OTS for the six thrifts where capital contributions
                             were backdated (IndyMac plus the five thrifts identified by OTS).
                             Appendix 2 contains a more detailed discussion of the
                             circumstances surrounding each of the six thrifts’ backdated capital
                             contributions.

Chart 1: Thrifts Backdating Capital Contributions
                OTS       Capital Contribution                    Reported In
  Thrift       Region          Received                          Quarter Ending                        OTS Action
IndyMac          Western             May 9, 2008                March 31, 2008              Authorized backdating prior to
                                                                                                        recording
     1          Southeast          August 5, 2008                June 30, 2008               Directed backdating prior to
                                                                                                        recording
     2          Southeast           July 29, 2008                June 30, 2008              Objected prior to the fact and
                                                                                            notified management; did not
                                                                                            require corrective action after
                                                                                              management proceeded to
                                                                                                        backdate
     3           Western            July 23, 2008                June 30, 2008                 Discovered after the fact;
                                                                                            required no corrective action 6
     4          Northeast         January 11, 2007            December 31, 2006                Discovered after the fact;
                                                                                             required no corrective action
     5          Southeast        October 17, 2007                September 30,                 Discovered after the fact;
                                November 20, 2007                    2007                       required thrift to restate
                                                                                                    financial reports
Sources: OTS officials and examination documentation, and for IndyMac relevant thrift records and E&Y.
Note: The thrift identifying numbers (1 – 5) correspond to the numbers included in Appendix 2. In addition, we did not include
specific thrift information such as the name of the institution and the amount of the backdated capital contribution as the five
thrifts are still active institutions.


                             We reviewed the circumstances surrounding the backdating of
                             capital contributions at the six thrifts and concluded that the
                             backdating of these transactions was inappropriate under GAAP for
                             all six thrifts.




6
  OTS Thrift Financial Report Instruction Manual, March 2003, states that in no case can OTS process
amendments to TFRs beyond 135 days after the end of the quarter. OTS did not become aware the
transaction was backdated until December 2008; and therefore, would not be able to require the thrift
to restate.

                             OTS Involvement With Backdated Capital Contributions by Thrifts                                Page 5
                             (OIG-09-037)
             As discussed in the section above, Events Leading to This Review,
             in the case of IndyMac, OTS’s Western Region Director authorized
             the backdating of the transaction.

             In the case of Thrift 1, the OTS Senior Deputy Director directed the
             regional office to instruct the thrift to infuse capital and backdate
             the transaction. In response to a request, we provided the details
             of this transaction and the involvement by this OTS official to
             Treasury Secretary Geithner in a memorandum dated March 17,
             2009. On March 26, 2009, the OTS official was placed on
             administrative leave pending a review by the Department of OTS’s
             August 2008 actions related to post-period capital contributions.

             For Thrift 2, OTS objected to backdating the transaction, informed
             the thrift management not to backdate the transaction, but the
             thrift proceeded to backdate it anyway. In this case, and in the
             cases of Thrift 3 and Thrift 4 where OTS became aware of the
             backdating after the fact, OTS allowed the backdating to remain
             for all three thrifts. For Thrift 3, it should be noted that OTS did not
             become aware of the backdating until after the period for amending
             the thrift’s financial reporting had closed. For Thrift 5, OTS became
             aware of the backdated transaction and directed it be reversed. In
             this case, the transaction was reversed and the financial reports
             were restated.

             Allowing thrifts, and in one case directing a thrift, to backdate
             contributions is inappropriate because the accounting treatment is
             not in accordance with GAAP and allows for misleading financial
             reporting. In addition, with the exception of the thrift that OTS
             directed to reverse the transaction and the thrift complied, OTS did
             not take appropriate action to address the other instances of
             backdating once the examiners became aware of such
             transactions.


Additional OTS Guidance on Capital Contributions Needs to Be
Issued
             On January 23, 2009, OTS issued New Directions Bulletin 09-04,
             Recognition of Capital Contributions in the Form of Cash or Notes,
             (New Directions Bulletin 09-04). The guidance permits thrifts to

             OTS Involvement With Backdated Capital Contributions by Thrifts   Page 6
             (OIG-09-037)
                      recognize as regulatory capital, capital contributions in the form of
                      a note receivable from the holding company, if the note is executed
                      prior to period end and the note is collected (i.e., the cash is
                      infused) prior to issuance of the financial statements for the same
                      period. New Directions Bulletin 09-04 states that capital
                      contributions of cash or notes may be included in regulatory capital
                      only when the contribution is properly reported as equity under
                      GAAP and complies with regulatory reporting guidance. 7

                      The underlying authoritative support for recognizing capital
                      contributions in the form of a note receivable as described in the
                      OTS guidance is Financial Accounting Standards Board (FASB)
                      Emerging Issues Task Force (EITF) 8 Abstract 85-1, Classifying
                      Notes Received for Capital Stock (Abstract 85-1). Issued in 1985,
                      Abstract 85-1 addresses when an enterprise receives a note, rather
                      than cash, as a contribution to its equity (either as a sale of capital
                      stock or a contribution to paid-in capital), and whether an
                      enterprise should report the note receivable as a reduction of
                      shareholders’ equity or as an asset. EITF reached a consensus that
                      reporting the note as an asset is generally not appropriate, except
                      in very limited circumstances when there is substantial evidence of
                      ability and intent to pay within a reasonably short period of time.

                      In addition, New Directions Bulletin 09-04 states that for a note
                      receivable to be properly reported in the TFR, the receivable must
                      meet all of the following criteria: evidenced by written
                      documentation that the note was contributed prior to period-end by
                      those with authority to make such capital contributions on behalf
                      of the holding company (e.g., board of directors, the CEO, or the
                      chief financial officer); a legally binding obligation to fund a


7
  OTS guidance requires thrifts to follow GAAP for all regulatory reports. The regulatory reporting
requirements at 12 CFR Section 562.2(b)(i) require thrifts to incorporate GAAP whenever GAAP is the
referenced accounting instruction.
8
  EITF was formed in 1984 in response to the recommendations of a FASB task force on timely
financial reporting guidance. EITF members are drawn primarily from public accounting firms but also
include representatives of large companies and preparers and users of financial statements. Composition
of EITF is designed to include persons in a position to be aware of emerging issues before they become
widespread and before divergent practices regarding them become entrenched. Therefore, if the group
can reach a consensus on an issue, usually that consensus is taken by FASB as an indication that no
FASB action is needed. Consensus positions of the EITF are ratified by FASB and are considered part of
GAAP.

                      OTS Involvement With Backdated Capital Contributions by Thrifts            Page 7
                      (OIG-09-037)
           specified amount by a specified date; and executed and
           enforceable prior to the end of the period. On February 26, 2009,
           OTS issued a memorandum to thrift CEOs with the text of the
           guidance in New Directions Bulletin 09-04.

           New Directions Bulletin 09-04 is a good step by OTS in that it
           clearly prohibits the improper practice noted with the six thrifts
           discussed in this report (i.e., backdating capital contributions to a
           prior period when no note receivable existed at the end of the
           period). We note, however, that there is no specific OTS guidance
           prescribing the steps to be taken by OTS examiners to identify
           backdated capital contributions. Based on the interviews we
           conducted and the documents we reviewed, it is apparent that
           transactions of this nature are not routinely checked for by OTS
           personnel. Furthermore, once officials and staff become aware of
           the suspect transaction, there is also no specific guidance on the
           steps to be taken by the examiner if it is determined that the thrift
           inappropriately backdated capital contributions.

           Therefore, we believe OTS should issue additional guidance
           outlining steps an OTS examiner should take to identify and
           address the backdating of capital contributions if and when an
           examiner becomes aware of such transactions. In addition,
           appropriate action should be taken to ensure OTS officials
           communicate the proper application of GAAP in these
           circumstances, and verify that all appropriate personnel understand
           the implications of backdating capital contribution transactions.


Recommendations
           We recommend that the Director of OTS do the following:

           1. determine whether there have been any additional backdated
              capital contributions, and, if so, take appropriate corrective
              action to remedy each situation as necessary.

               Management Response

               OTS conducted an extensive search for post-period end capital
               contributions. Furthermore, through its off-site monitoring, in an

           OTS Involvement With Backdated Capital Contributions by Thrifts   Page 8
           (OIG-09-037)
    effort to detect potentially suspect capital contributions, OTS
    plans to institute a TFR edit check process to identify and report
    amended TFRs that reflect increases to equity capital. OTS also
    developed a report that highlights increases to equity capital
    from stock issued or capital contributions where no stock is
    actually issued. TFR edit checks for these line items will be
    implemented in June and will require the filing institutions to
    provide explanations of the reported amounts.

    OIG Comment

    OTS’s response and actions to date meet the intent of this
    recommendation. Furthermore, the TFR edit check process as
    described, when implemented, should assist OTS to identify
    such cases in the future.

2. issue additional guidance outlining steps OTS examiners should
   take to identify and address the backdating of capital
   contributions immediately after examiners become aware of
   such transactions.

    Management Response
     
    OTS asserts that it has longstanding policies and procedures
    regarding the identification and follow-up action processes
    relating to the misreporting of capital contributions. These
    policies and procedures are reflected in the OTS Examination
    Handbook and Thrift Financial Report Instructions. OTS will also
    remind its examiners and supervisory staff of the actions
    required to address TFR reporting errors.

    OIG Comment

    We were aware of the policies and procedures reflected in the
    OTS Examination Handbook and TFR instructions. These
    policies and procedures did not include specific instructions
    relating to the circumstances described in this report, and in
    turn, were not effective in preventing the backdated capital
    contributions discussed in this report. However, in light of the
    additional guidance provided by New Directions Bulletin 09-04,
    its commitment to remind staff of the requirements to address

OTS Involvement With Backdated Capital Contributions by Thrifts   Page 9
(OIG-09-037)
    TFR reporting errors, and the planned TFR edit checks described
    in the response to recommendation 1, we accept that OTS does
    not intend to prescribe additional specific guidance at this time.
    That said, we emphasize the need for continuous monitoring
    and periodic training of examiners and supervisory staff to
    ensure the guidance outlining the steps OTS examiners should
    take to identify and address the backdating of capital
    contributions is effectively disseminated and institutionalized so
    that these circumstances do not occur in the future. OTS should
    also periodically assess the need for additional guidance.

3. ensure that examiners and supervisory staff understand OTS
   guidance on capital contributions and the implications of
   backdating capital contribution transactions.

    Management Response
     
    OTS has taken action to ensure staff fully understand the
    guidance in New Directions Bulletin 09-04. On April 2, 2009,
    the OTS Chief Accountant and senior accounting staff
    conducted a “live” supervision policy presentation (telephone
    conference call) available to all staff which included a review of
    the capital contribution guidance. The full presentation,
    including the questions and answers, was posted to the OTS
    Intranet. In addition, more than 40 OTS staff members attended
    the Interagency Accounting Conference on April 14-16, 2009.
    Recognition of capital contributions in the form of cash or notes
    was discussed during the OTS-only session and time was
    allotted for questions and answers. Additionally, on March 25,
    2009, OTS conducted a presentation and discussion about the
    recognition of capital contributions in the form of cash or a note
    receivable at an OTS all-attorney meeting in Washington.

    OIG Comment

    OTS’s actions meet the intent of our recommendation. As
    stated above, we continue to emphasize the need for periodic
    training of examiners and supervisory staff in this area.




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 10
(OIG-09-037)
                             * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. Major contributors to this report are Lisa
DeAngelis, Senior Auditor, and Donna Joseph, Referencer. If you
wish to discuss the report, you may contact me at (202) 927-
5776.




Susan L. Barron
Audit Director




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 11
(OIG-09-037)
Appendix 1
Objectives, Scope, and Methodology




We received information from the Federal Deposit Insurance
Corporation (FDIC) Inspector General indicating that a May 2008
capital contribution into IndyMac Bank, F.S.B. (IndyMac) was
recorded in the prior quarter. During our initial review of this
matter, we requested the Office of Thrift Supervision (OTS) provide
us with information regarding any other similar backdated
transactions that had occurred. For the fiscal year ending
September 30, 2008, OTS advised our office that it had identified
241 amended Thrift Financial Reports (TFR) that had changes to
total equity capital. Of that number, OTS determined that 82 of the
amended TFRs reflected increases in equity capital. Upon further
review, OTS found five cases where a capital contribution was
backdated to the previous quarter. Our review focused on IndyMac
and these additional five cases.

The specific objectives of this audit were to review (1) the
circumstances surrounding the backdating of capital contributions
by the six thrifts, (2) the appropriate accounting treatment for
these capital contributions, and (3) the oversight performed by the
OTS officials relating to these transactions.

To meet our objectives, we

•   reviewed documentation obtained from OTS as to the
    circumstances surrounding the backdated capital contributions,
    including OTS’s analyses of the transactions, examination
    workpapers, thrift documents, and internal e-mail messages;
•   interviewed OTS headquarters officials, field officials, and staff
    (this included those officials and staff responsible for the
    supervision of the six thrifts discussed in this report);
•   interviewed OTS officials responsible for establishing the OTS
    accounting policy to be followed by thrifts for recording/
    recognizing capital contributions;
•   for IndyMac, interviewed its independent auditor and reviewed
    workpapers prepared by the independent auditor;
•   defined and analyzed the accounting authorities and available
    supporting guidance relating to the accounting treatment of
    capital contributions; and
•   discussed accounting guidance with officials from OTS, the
    Financial Accounting Standards Board, FDIC, the Securities and


OTS Involvement With Backdated Capital Contributions by Thrifts   Page 12
(OIG-09-037)
Appendix 1
Objectives, Scope, and Methodology




    Exchange Commission, and the Office of the Comptroller of the
    Currency.

We conducted our fieldwork from September 2008 through May
2009 at OTS’s headquarters in Washington, D.C. and Western
Region; and E&Y in Los Angeles, California.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 13
(OIG-09-037)
                       Appendix 2
                       Detailed Discussion of Backdated Capital at Six Thrifts



                       IndyMac Bank, F.S.B.

                       Summary IndyMac Bank F.S.B. (IndyMac) improperly backdated a
                       May 2008 capital contribution of $18 million from its holding
                       company to its financial reports for the period ending March 31,
                       2008. The Office of Thrift Supervision’s (OTS) Western Region
                       Director approved the backdating of this transaction. This
                       backdated transaction was done to maintain IndyMac as a well-
                       capitalized institution when, in fact, it was not well-capitalized at
                       that date.

                       Discussion The circumstances leading to the backdated capital
                       contribution began with the thrift’s independent auditor’s review of
                       its interim financial statements for the quarter ended March 31,
                       2008. 9 During the course of that review, the independent auditor,
                       Ernst & Young LLP (E&Y) proposed a number of adjustments. 10
                       When combined with previously proposed, but unrecorded
                       adjustments identified by E&Y during the course of its audit of
                       IndyMac’s calendar year 2007 financial statements, the effect
                       would have put IndyMac’s capital ratio as of March 31, 2008
                       below the 10 percent “well-capitalized” threshold. 11

                       The E&Y engagement partner for IndyMac participated in a
                       conference call with the OTS Western Region Director and
                       IndyMac’s Chief Executive Officer (CEO) on May 9, 2008. During
                       the call, the CEO asked if OTS would allow IndyMac to record a


9
  A review of interim financial information by an independent auditor differs significantly from an audit.
The objective of a review is to provide the auditor a basis for communicating whether he or she is
aware of any material modifications that should be made to the interim financial information for it to
conform with generally accepted accounting principles (GAAP). A review does not provide a basis for
expressing an opinion about whether the financial statements are presented fairly, in all material
respects, in conformity with GAAP. A review consists principally of performing analytical procedures
and making inquiries of persons responsible for financial accounting matters, and does not contemplate
tests of account records or controls, obtaining corroborating evidence, or performing certain other
procedures ordinarily performed in an audit.
10
   It is not unusual for an auditor to propose adjustments. It is also not unusual for management to
waive the recordation of those adjustments. In practice, the auditor keeps track of the total effect of
any unrecorded adjustments and if that total effect becomes material to users, the auditor will insist
that the adjustments be recorded. Failure to do so by management will result in a modification of the
auditor’s opinion.
11
   When an institution falls below “well-capitalized,” certain restrictions automatically take affect like
restrictions on brokered deposits.

                       OTS Involvement With Backdated Capital Contributions by Thrifts             Page 14
                       (OIG-09-037)
                       Appendix 2
                       Detailed Discussion of Backdated Capital at Six Thrifts


                       May 2008 capital contribution 12 from IndyMac’s holding company
                       to IndyMac as of March 31, 2008. According to E&Y officials, the
                       OTS official acknowledged the issue of the E&Y’s proposed
                       adjustments and agreed to IndyMac’s proposal to backdate the
                       capital contribution. As a result, IndyMac’s total risk-based capital
                       ratio was restored back over the 10 percent “well-capitalized”
                       threshold for the March 31 report.

                       The capital contribution in question occurred on May 9, 2008,
                       nearly 6 weeks after the end of the quarter and the day of the
                       conference call between the IndyMac CEO, the OTS Western
                       Region Director, and E&Y. The actual amount infused on that date
                       was $50 million but only $18 million of that amount (the amount
                       necessary for IndyMac to be “well-capitalized”) was backdated to
                       the prior quarter. According to IndyMac documentation, the capital
                       contribution of $50 million was intended by the holding company’s
                       board of directors to be for the second quarter (quarter ending
                       June 30, 2008). 13

                       The impact of OTS’s approval to record the capital contribution in
                       the quarter ending March 31, 2008, was that IndyMac was able to
                       maintain its “well-capitalized” status, and avoid the requirement in
                       law to obtain a waiver from FDIC to accept brokered deposits. 14 It
                       also solved another problem in that the independent auditor had
                       advised IndyMac management that without IndyMac’s acceptance
                       of several proposed adjustments relating to the thrift’s
                       capitalization, the independent auditor would not have signed-off
                       on the interim review. IndyMac needed the signed interim review in
                       order to file a complete quarterly report (10Q), as required, with
                       the Securities and Exchange Commission on May 15, 2008.



12
   The E&Y workpaper that was prepared around this time to document the conference call stated that
the capital contribution was made in April 2008. This was apparently an error in the workpaper as there
was no mention of an April 2008 contribution in the documents we reviewed and our interviews with
E&Y and OTS officials.
13
   There was some evidence that IndyMac sought OTS’s approval to backdate the entire $50 million
contribution. However, the OTS West Region Director authorized only the $18 million to be backdated.
14
   There are five established capital classifications for insured financial institutions: well-capitalized,
adequately capitalized, undercapitalized, significantly undercapitalized, and critically undercapitalized.
The use of brokered deposits is limited to well-capitalized insured depository institutions. Adequately
capitalized institutions are required to obtain a waiver from the Federal Deposit Insurance Corporation
(FDIC) in order to accept brokered deposits.

                       OTS Involvement With Backdated Capital Contributions by Thrifts             Page 15
                       (OIG-09-037)
                     Appendix 2
                     Detailed Discussion of Backdated Capital at Six Thrifts


                     Although the OTS Western Region Director approved the
                     backdating of the capital contribution, he did so without obtaining
                     documentation supporting the circumstances surrounding the
                     transaction. When we initially inquired about the backdated capital
                     contribution, in September 2008, the OTS Deputy Director
                     responsible for Examinations, Supervision, and Consumer
                     Protection (ESCP), stated he was told that IndyMac had recorded a
                     note receivable for the $18 million as of March 31, 2008. The
                     Deputy Director requested that OTS staff research the transaction.
                     He later advised us, in an October memorandum, that such a note
                     receivable did not exist.

                     We then sought to determine whether the holding company had
                     the cash available as of March 31, 2008, to make an $18 million
                     capital contribution at period-end. In this regard, we reviewed the
                     bank statements of the holding company. 15 Based on our review of
                     those records, the holding company did have about $18.3 million in
                     cash at March 31, 2008.

                     In a letter dated January 30, 2009, to the Treasury Secretary, the
                     OTS Director concluded that the $18 million capital contribution
                     that occurred on May 9, 2008, should not have been included in
                     IndyMac’s Thrift Financial Report (TFR) for the period ending
                     March 31, 2008. OTS based its conclusion on the fact that the
                     institution had not recorded a note receivable from the holding
                     company before the quarter ended.

                     E&Y officials we interviewed stated that they were not aware of
                     Financial Accounting Standards Board Emerging Issues Task Force
                     Abstract 85-1, Classifying Notes Received for Capital Stock
                     (Abstract 85-1) and therefore, the abstract was not considered in
                     their decision to sign-off on the IndyMac financial statements for
                     the quarter ending March 31, 2008. The officials also stated that
                     they had not previously encountered a situation where a capital
                     contribution was backdated. The officials stated that they accepted
                     the accounting treatment for the contribution based only on the
                     OTS approval.


15
  We obtained the holding company accounting records and bank statements from FDIC. At the time of
our fieldwork, FDIC was operating the former IndyMac Bank under the name of IndyMac Federal Bank
as conservator.

                     OTS Involvement With Backdated Capital Contributions by Thrifts       Page 16
                     (OIG-09-037)
                       Appendix 2
                       Detailed Discussion of Backdated Capital at Six Thrifts


                       On June 20, 2008, a little over a month after IndyMac backdated
                       the capital contribution and amended its TFR, OTS completed a
                       comprehensive examination of IndyMac and assigned a composite
                       CAMELS rating of 5 16 to the institution. On July 11, 2008, OTS
                       placed IndyMac into receivership, formed a newly chartered thrift
                       (IndyMac Federal Bank, FSB), and named the FDIC as conservator.
                       The estimated loss to the Deposit Insurance Fund from the failure
                       of IndyMac is $10.7 billion.

                       Thrift 1

                       Summary According to documentation provided by OTS, this thrift
                       recorded an August 2008 contribution by its holding company as
                       thrift capital for the quarter ending June 30, 2008. In this case,
                       OTS directed the backdating of the capital contribution.

                       Discussion On August 4, 2008, OTS headquarters officials,
                       including the Senior Deputy Director and the Deputy Director for
                       ESCP, participated in a conference call with OTS Southeast Region
                       officials to discuss the thrift’s CAMELS ratings for a recently
                       concluded examination of the thrift and the appropriate supervisory
                       and enforcement response. Among the items discussed was the
                       willingness of management to infuse capital from the holding
                       company into the thrift to offset a loss for the quarter ending
                       June 30, 2008. With that in mind, the amount of funds available at
                       the holding company for infusion was discussed and the OTS
                       Senior Deputy Director told the OTS regional officials to request
                       the holding company to infuse as close to a certain amount of
                       funds as possible. The timing of the recognition of the contribution
                       was also discussed. The OTS Senior Deputy Director advised that
                       for regulatory purposes the infusion should be recognized as of
                       June 30, 2008, and the TFR amended accordingly.

                       In an interview, an OTS Southeast Region official told us that
                       during the call, the OTS Southeast Region Director informed the
                       Headquarters officials that the thrift did not have a note or other
                       required documentation to support recognition of the contribution
                       in the June quarter under GAAP. According to the OTS regional

16
  CAMELS is an acronym for the following performance rating components: Capital adequacy, Asset
quality, Management, Earnings, Liquidity, and Sensitivity to market risk. Numerical values range from 1
to 5, with 1 being the best rating and 5 being the worst rating.

                       OTS Involvement With Backdated Capital Contributions by Thrifts          Page 17
                       (OIG-09-037)
                     Appendix 2
                     Detailed Discussion of Backdated Capital at Six Thrifts


                     official, the Senior Deputy Director indicated that he was willing to
                     accept that in this case. After the conference call, OTS Southeast
                     Region officials called the thrift’s CEO and directed that the capital
                     contribution be made immediately and an amended TFR be filed.
                     The contribution was made in August 2008 and the TFR was
                     amended accordingly to reflect the contribution as of June 30,
                     2008.

                     Even without the capital contribution, based on June 30, 2008,
                     financial information, the thrift met the regulatory threshold as
                     well-capitalized as it had a total risk-based capital ratio of greater
                     than 10 percent. However, OTS had imposed a 15 percent risk-
                     based capital level on the thrift by a Memorandum of
                     Understanding issued in July 2008. 17

                     According to the latest OTS Problem Bank Report provided our
                     office, as of February 11, 2009, the thrift’s composite CAMELS
                     rating is now 5 and it is classified as critically undercapitalized.

                     Thrift 2

                     Summary According to OTS documentation, the thrift created and
                     backdated a note receivable after the fact to improperly record a
                     July 2008 capital contribution as capital for the quarter ended
                     June 30, 2008. OTS was aware of the backdated capital
                     contribution, concluded that the transaction was inappropriate, and
                     notified management of OTS’s position. However, OTS did not
                     require the thrift to restate the TFR for June 30, 2008 after
                     management proceeded to backdate the transaction.

                     Discussion On July 22, 2008, OTS examiners met with
                     management of the thrift to discuss the thrift’s capital status.
                     Based on analysis performed by the thrift’s management and with
                     input from OTS examiners, the thrift’s allowance for loan and lease
                     losses (ALLL) needed to be increased. OTS examiners suggested
                     that the increase to the ALLL be made as of June 30, 2008, and
                     reported in the corresponding TFR. This increase to the ALLL would
                     result in the thrift’s capital level falling below well-capitalized.

17
  OTS enters into Memorandums of Understanding with thrifts as informal enforcement actions to
correct unsafe and unsound practices or compliance issues. Memorandums of Understanding are not
enforceable in court or made public by OTS.

                     OTS Involvement With Backdated Capital Contributions by Thrifts       Page 18
                     (OIG-09-037)
Appendix 2
Detailed Discussion of Backdated Capital at Six Thrifts




In a letter to OTS dated July 30, 2008, the chairmen of the boards
of the thrift and holding company stated that the problem could be
solved by creating a note payable from the holding company to the
thrift. The chairmen further stated the holding company’s board
resolved to make a capital contribution of a size and structure
necessary to maintain the thrift’s well-capitalized status following a
management analysis of required additions to the thrift’s ALLL
based on June 30, 2008, financial reports. In addition, the letter
stated the contribution would occur after June 30, 2008, but
before the filing of the TFR for that quarter; and that the note
would be recognized as capital in the June 30, 2008, TFR and
would maintain the thrift’s well-capitalized status as of that date.

In a July 22, 2008 meeting with OTS examiners, the thrift’s Chief
Financial Officer (CFO) referred to Abstract 85-1 as the basis for
action, which according to their external accountants, would allow
the thrift to retroactively record the capital contribution as a note
receivable from the holding company and include it as equity
capital thereby keeping the thrift minimally above the well-
capitalized level. The CFO stated that prior to June 30, 2008, the
holding company board agreed to provide the necessary capital to
the thrift for it to remain well capitalized at June 30, 2008;
however, they were uncertain what the appropriate amount of
capital would be at that time. The CFO also stated that the
potential ramifications of filing the June 30 TFR as adequately
capitalized, combined with the significant losses and elevated
volume of classified assets, could create a liquidity crisis and
materially impact the thrift’s future viability. The CFO told the
examiners that it was imperative that the thrift’s well-capitalized
status be maintained in order to have access to the broker deposit
market for liquidity purposes.

On the same day, the examiners consulted with OTS’s Southeast
Region accountant about the transaction. The OTS accountant told
the examiners that OTS is of the opinion that Abstract 85-1, and
basic accounting principles, precluded recognition of a capital
contribution where the cash is received after the balance sheet
date unless the bank receives a legally enforceable note receivable
dated prior to the balance sheet date.



OTS Involvement With Backdated Capital Contributions by Thrifts   Page 19
(OIG-09-037)
                       Appendix 2
                       Detailed Discussion of Backdated Capital at Six Thrifts


                       A promissory note was created and the capital contribution
                       received in July 2008 was recorded in the TFR as of June 30,
                       2008. However, OTS confirmed to us that it did not require the
                       thrift to restate the TFR.

                       According to the latest OTS Problem Bank Report, as of January 6,
                       2009, the thrift’s composite CAMELS rating is now 4 and it is
                       classified as adequately capitalized.

                       Thrift 3

                       Summary According to OTS documentation, this thrift created and
                       backdated a note receivable after the fact to improperly record a
                       July 2008 capital contribution as capital for the quarter ended
                       June 30, 2008. This action was taken to maintain the thrift in a
                       well-capitalized status after its independent auditor identified a
                       necessary audit adjustment. However, the action was unnecessary
                       as OTS examiners later found accounting errors that caused the
                       thrift’s capital level to be understated. Had those errors been
                       detected and corrected, the thrift would have been well-capitalized
                       for the quarter without the backdated capital infusion. OTS did not
                       require the thrift to restate the TFR for June 30, 2008.

                       Discussion The thrift’s independent auditors noted during their
                       review of the financial statements for the quarter ending June 30,
                       2008, that the thrift needed to record an additional amount for
                       other than temporary impairment (OTTI) charges. 18 As a result of
                       the review, the thrift’s change in policy required an additional
                       amount in OTTI to be recorded on the thrift’s records as of
                       June 30, 2008.



18
  Financial Accounting Standard 115, “Accounting for Certain Investments in Debt and Equity
Securities,” requires that for individual securities classified as either available-for-sale or held-to-
maturity, an enterprise shall determine whether a decline in fair value below the amortized cost basis is
other than temporary. For example, if it is probable that the investor will be unable to collect all
amounts due according to the contractual terms of a debt security not impaired at acquisition, an OTTI
shall be considered to have occurred. If the decline in fair value is judged to be other-than–temporary,
the cost basis of the individual security shall be written down to fair value as a new cost basis and the
amount of the write down shall be included in earnings (that is, accounted for as a realized loss).



                       OTS Involvement With Backdated Capital Contributions by Thrifts            Page 20
                       (OIG-09-037)
Appendix 2
Detailed Discussion of Backdated Capital at Six Thrifts


To offset the amount charged off as OTTI and, in turn, the
unexpected loss, the thrift obtained a capital contribution from its
holding company to maintain its well-capitalized status. The
contribution occurred in July 2008. The thrift also created and
backdated a note receivable and recorded the infused amount as
capital as of June 30, 2008.

OTS examiners discovered during the subsequent examination that
the thrift was reporting single family real estate properties
qualifying for 50 percent risk-weighting treatment at a 100 percent
risk-weighting in error. The loans were reclassified to the correct
50 percent risk-weighting category beginning with the September
2008 TFR. This correction, had it been applied to the June 2008
quarter, would have the effect of raising the risk-based capital ratio
and regardless of the capital contribution, the thrift would have
remained well capitalized. However, this fact was not known at the
time the backdating was done.

In an interview, the OTS Western Region Assistant Director stated
that he first became aware of the backdated capital contribution in
December 2008 when OTS headquarters asked for cases in which
capital contributions from the holding company to the thrift had
been backdated. He knew that in the case of the thrift, the capital
ratio was just above the required ratio and reviewed the thrift for
potential backdating. He stated that the entire backdating of the
capital contribution took place in July 2008. OTS was not aware
that this had been done at the time. He further stated that the
holding company infused just enough capital to keep the bank over
the capital standards for well-capitalized. OTS did not become
aware the transaction was backdated until December 2008; and
therefore, would not be able to require the thrift to restate as the
closing period for amending the June 2008 TFR had lapsed.

The thrift received a composite CAMELS rating of 3 on its last
examination, and is well-capitalized. The thrift is being tracked as
an elevated risk requiring additional supervisory attention.

Thrift 4

Summary According to OTS documentation, this thrift created and
backdated a note receivable after the fact to improperly record a

OTS Involvement With Backdated Capital Contributions by Thrifts   Page 21
(OIG-09-037)
Appendix 2
Detailed Discussion of Backdated Capital at Six Thrifts


January 2007 capital contribution for the quarter ended
December 31, 2006. Without the additional capital contribution,
the thrift was still well-capitalized (at 10.01 percent) for the
quarter. OTS documentation indicated that OTS examiners
questioned the transaction but in the end determined that the
accounting treatment was acceptable.

Discussion Thrift management concluded in December 2006 that
the holding company would need to make a capital contribution to
the thrift to continue to maintain its well-capitalized status. In
December 2006, the holding company made a capital contribution
based on management’s estimate as to the amount needed.

However, in connection with the year-end closing process in early
January 2007, the thrift determined that its risk-based capital ratio
was 10.01 percent, which met well-capitalized status. The holding
company infused additional capital which increased the thrift’s risk
based capital ratio to 10.07 percent. The thrift recorded the
additional capital contribution made in January 2007 as if it had
occurred on December 31, 2006, after the period end date, but
before filing its quarterly TFR. The thrift documented the infusion
with a note receivable created in January 2007, also backdated to
December 2006.

In a report, the thrift’s internal auditors stated that an audit of the
TFR for December 31, 2006, found that there was no clear, direct
GAAP or regulatory accounting guidance to support the recognition
of the capital contribution as a receivable at December 31, 2006.
The report also recognized management’s key reasons for
backdating the capital contribution to December 31, 2006.
However, the internal auditors stated that they agreed with
management’s conclusions and did not object to the accounting
treatment applied to the infusion. In addition, the thrift’s
independent auditors reviewed the accounting treatment by
management and accepted it.

OTS examiners raised concerns about the backdated capital
infusion during an April 2007 examination of the thrift. An OTS
examiner noted disagreement in the examination workpapers with
the thrift’s decision to record the January 2007 capital contribution
in the quarter ending December 31, 2006. The examiner stated in
the workpapers that contrary to the opinion of senior management,
OTS Involvement With Backdated Capital Contributions by Thrifts   Page 22
(OIG-09-037)
Appendix 2
Detailed Discussion of Backdated Capital at Six Thrifts


the examiners determined that the capital contribution should not
have been included as capital in 2006 because the evidence
indicates that the need for the contribution was not recognized
until January 2007. The examiner also stated that he was unsure
whether the thrift was well-capitalized at December 31, 2006,
because its risk-based capital level was only 10.01 percent prior to
recording the January 2007 contribution, and there were various
errors noted which could not be determined during the course of
the examination.

In addition, in a series of emails between the OTS Northeast Region
accountant and examiners discussing the issue, the accountant and
examiner indicated to the examiner in charge that they believed
there was no support for the backdating of the transaction and that
it should have been reversed. They further stated that they believe
there needs to be a legally, binding transaction in order to record
the receivable. The examiner in charge responded that the opinion
from headquarters was that unless there was a board resolution or
receivable, it was not capital. However, in the examiner
workpapers, these opinions were overridden by an OTS Northeast
Region field manager after considering additional information,
including analysis of Abstract 85-1 and discussions with holding
company’s counsel and independent accountants. OTS in the end
took the position that there was no problem with the accounting of
the capital contribution by the thrift.

In an interview, the OTS Northeast Region Assistant Director told
us that he first became aware of the capital contribution during an
examination in May 2007 After reviewing the situation, the OTS
official stated that OTS determined at the time that the accounting
treatment was permissible and that the thrift would have met the
well-capitalized threshold without the contribution.

The thrift received a composite CAMELS rating of 3 on its last
examination, and is well-capitalized. The thrift is being tracked as
an elevated risk requiring additional supervisory attention.

Thrift No. 5

Summary According to OTS documentation, this thrift recorded a
note receivable after the fact to improperly report capital


OTS Involvement With Backdated Capital Contributions by Thrifts   Page 23
(OIG-09-037)
Appendix 2
Detailed Discussion of Backdated Capital at Six Thrifts


contributions received in October and November 2007 for the
quarter ended September 30, 2007. OTS required the thrift to
reverse the transaction.

Discussion The capital contributions were made because loan
losses related to the September fiscal year-end caused the thrift to
drop from the status of well-capitalized to adequately capitalized.
After determining the amount of the loan losses subsequent to
fiscal year-end, the holding company infused capital into the thrift.

The thrift recognized the capital contributions as of September 30,
2007, by recording a note receivable and increasing its capital.
However, the thrift did not receive a note receivable from its
holding company. According to OTS’s Chief Accountant, thrift
officials stated that they had communicated to OTS the holding
company’s intent to provide capital when needed in order to
maintain certain core capital levels. While there was no
communication of intent to maintain well-capitalized status, the
thrift officials asserted that the statement of intent regarding core
capital was equivalent to a note receivable and supported
recognition of an asset as of September 30, 2007. The thrift
officials’ views were that intent is recognizable as an asset under
Abstract 85-1 as long as the holding company had the intent and
ability to make the capital contribution and did so prior to issuance
of the financial statements. OTS’s Chief Accountant disagreed with
the thrift’s analysis of Abstract 85-1 and OTS directed the thrift to
restate the TFR. As a result, the thrift’s September 30, 2007 audit
opinion on the financial statements was reissued by the audit firm.

The thrift is not included on the latest OTS problem bank report.




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 24
(OIG-09-037)
                 Appendix 3
                 Management Response


Note: OIG Comments appear in Appendix 4.




OIG Comment 1,
Appendix 4

OIG Comment 2,
Appendix 4




                 OTS Involvement With Backdated Capital Contributions by Thrifts   Page 25
                 (OIG-09-037)
Appendix 3
Management Response




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 26
(OIG-09-037)
Appendix 3
Management Response




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 27
(OIG-09-037)
Appendix 3
Management Response




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 28
(OIG-09-037)
Appendix 4
OIG Comments to Management Response




OIG Comment 1 OTS stated that the capital contributions in
question were made to the thrifts in cash prior to the filings of
quarterly Securities and Exchange Commission public filings.
Although true, the fact remains that in both cases there was not a
valid note receivable recorded before the end of the quarter.
Therefore, no contribution towards capital should have been
recorded in the prior quarter regardless of whether the cash was
received prior to the public filings. In addition, for IndyMac, the
backdated capital contribution was intended by its holding
company’s board of directors to be for the second quarter, not as
of March 31, 2008.

OIG Comment 2 OTS stated that the contributions increased
capital at the thrift level but had no impact on the equity reported
by the holding companies in their consolidated public financial
statements. This statement is true for all contributions whether
they are backdated or recorded in the proper period as these
transactions would be eliminated when preparing holding
companies’ consolidated financial statements. However, our
concern with these transactions are not on the consolidated
financial statements, but on the thrift’s financial reports prior to
consolidation. In that regard, the thrifts’ financial reports would be
inaccurate and misleading to the regulatory agency and other users
who rely on these reports to make decisions relating to the safety
and soundness of the financial institution.




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 29
(OIG-09-037)
Appendix 5
Report Distribution




Department of the Treasury

    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




OTS Involvement With Backdated Capital Contributions by Thrifts   Page 30
(OIG-09-037)
